APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
District Court of Okmulgee County, State of
Oklahoma, Findings of Fact and Conclusions of
Law (November 4, 2020) ......................................... 10a
Appellant’s Proposed Findings of Fact and
Conclusions of Law (October 21, 2020)............ 13a
Joint Motion to Strike Hearing
(October 16, 2020) ............................................ 16a
Agreed Stipulations
(October 16, 2020) ............................................ 18a
Court Minute
(October 15, 2020) ............................................ 21a
District Court of Okmulgee County, State of
Oklahoma, Order Setting Evidentiary
Hearing August 24, 2020) ................................ 23a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 25a

App.1a
OPINION OF THE COURT OF
CRIMINAL APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JIMMIE DEWAYNE STARR,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2018-640
An Appeal from the District Court of Okmulgee
County, the Honorable Cynthia Pickering,
District Judge
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ROWLAND, VICE PRESIDING JUDGE:
Petitioner Jimmie Dewayne Starr entered a guilty
plea in the District Court of Okmulgee County to
crimes charged in the following three cases: in Case
No. CF-2016-80, Endangering Others While Eluding/

App.2a
Attempting to Elude a Police Officer (Count 1), in violation of 21 O.S.2011, § 540A(B) and Failure to Wear
a Seatbelt (Count 2), in violation of 47 O.S.Supp.2012,
§ 12-417; in Case No. CF-2017-131, Possession of Controlled Dangerous Substance (Count 1), in violation of
63 O.S.Supp.2012, § 2-402 and Resisting an Officer
(Count 2), in violation of 21 O.S.2011, § 268; and, in
Case No. CF-2017-132, Bail Jumping, in violation of
22 O.S.2011, § 1110. The felony counts were charged
After Former Conviction of Two or More Felonies.
The Honorable Cynthia D. Pickering, Associate
District Judge, accepted Starr’s plea and sentenced
him as follows: in Case No. CF-2016-80, twenty years
imprisonment on Count 1 and costs on Count 2; in
Case No. CF-2017-131, ten years imprisonment on
Count 1 and one year on Count 2; and in Case No. CF2017-132, three years incarceration. All sentences
were ordered to be served concurrently.
Starr filed a timely motion to withdraw his guilty
plea. After a hearing on the motion to withdraw held
on June 14, 2018, the motion was denied.
Starr appeals the denial of his motion, raising the
following issues:
(1) Whether the district court lacked jurisdiction
to sentence him;
(2) whether he was denied effective assistance
of counsel;
(3) whether the admission of improper evidence
resulted in an excessive sentence;
(4) whether the district court’s failure to appoint
conflict-free counsel at the hearing on the

App.3a
motion to withdraw plea resulted in reversible
error;
(5) whether his sentence is excessive; and
(6) whether the State of Oklahoma lacked jurisdiction to prosecute him.
We find relief is required on Starr’s jurisdictional
challenge in Proposition 6, rendering his other claims
moot. Starr claims the State of Oklahoma did not have
jurisdiction to prosecute him. He relies on 18 U.S.C.
§ 1153 and McGirt v. Oklahoma, 591 U.S., 140 S. Ct.
2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of Okmulgee County for an
evidentiary hearing. We directed the District Court to
make findings of fact and conclusions of law on two
issues: (a) Starr’s status as an Indian; and, (b)
whether the crime occurred within the boundaries of
the Muscogee Creek Reservation. Our order provided
that if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation
setting forth those facts, and no hearing would be
necessary.
On October 15, 2020, the parties appeared before
the Honorable Cynthia D. Pickering and announced
that an agreement had been reached and that no evidentiary hearing was necessary. On October 16, 2020,
the parties filed in the District Court a written Agreed
Stipulation in which they agreed: (1) that Starr has
some Indian blood; (2) that he was a recognized member of the Muscogee Creek Nation on the date of the
charged offense; (3) that the Muscogee Creek Nation is

App.4a
a federally recognized tribe; and, (4) that the charged
crime occurred within the Muscogee Creek Reservation.
The District Court accepted the parties’ stipulation
and on November 4, 2020, filed its Findings of Fact and
Conclusions of Law. The District Court found the facts
recited above in accordance with the stipulation. The
District Court concluded that Starr is an Indian under
federal law and that the charged crimes occurred
within the boundaries of the Muscogee Creek Reservation. The ruling in McGirt governs this case and
requires us to find the District Court of Okmulgee
County did not have jurisdiction to prosecute Starr.
Accordingly, we grant relief on error raised in Proposition 6.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTION TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
OKMULGEE COUNTY, THE HONORABLE
CYNTHIA PICKERING, DISTRICT JUDGE
APPEARANCES IN THE DISTRICT COURT
Cori Felkins
Attorney at Law
P.O. Box 998
Okmulgee, OK 74447
Attorney for Petitioner

App.5a
Carol Iski
Assistant District Attorney
314 West 7th
Okmulgee, OK 74447
Attorney for State
APPEARANCES ON APPEAL AND REMAND
Nicollette Brandt
Danny Joseph
Appellate Defense Counsel
P.O. Box 926
Norman, OK 73070
Attorney for Petitioner
Mike Hunter
Atty. General of Oklahoma
Joshua R. Fanelli
Jennifer Crabb
Asst. Attorney Generals
313 NE 21st Street
Oklahoma City, OK 73105
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Results
Lewis, J.: Concur
Hudson, J.: Specially Concur

App.6a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, U.S. 140 S.
Ct. 2452 (2020), I do so reluctantly. Upon the first
reading of the majority opinion in McGirt I initially
formed the belief that it was a result in search of an
opinion to support it. Then upon reading the dissents
by Chief Justice Roberts and Justice Thomas I was
forced to conclude the Majority had totally failed to
follow the Court’s own precedents, but had cherry
picked statutes and treaties, without giving historical
context to them. The Majority then proceeded to do
what an average citizen who had been fully informed
of the law and facts as set out in the dissents would
view as an exercise of raw judicial power to reach a
decision which contravened not only the history leading
to the disestablishment of the Indian reservations in
Oklahoma, but also willfully disregarded and failed to
apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’ scholarly
and judicially penned dissent, actually following the
Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow the
rule of law and apply over a century of precedent and

App.7a
history, and to accept the fact that no Indian reservations
remain in the State of Oklahoma.1 The result seems
to be some form of “social justice” created out of whole
cloth rather than a continuation of the solid precedents
the Court has established over the last 100 years or
more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA) in
1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February 27,
1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support of
the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.8a
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application
of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do so
blindly and without noting the flaws of the opinion as
set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s
mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and no
longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.9a
HUDSON, J., SPECIALLY CONCURS:
Today’s decision dismisses convictions for
endangering others while eluding/attempting to elude
a police officer, possession of controlled dangerous
substance and various misdemeanor crimes from the
District Court of Okmulgee County based on the
Supreme Court’s decision in McGirt v. Oklahoma, 140
S. Ct. 2452 (2020). This decision is unquestionably
correct as a matter of stare decisis based on the Indian
status of Petitioner and the occurrence of the crimes
on the Creek Reservation. Under McGirt, the State
has no jurisdiction to prosecute Petitioner for the
crimes in this case. Instead, Petitioner must be
prosecuted in federal court. I therefore as a matter of
stare decisis fully concur in today’s decision. Further,
I maintain my previously expressed views on the
significance of McGirt, its far-reaching impact on the
criminal justice system in Oklahoma and the need for
a practical solution by Congress. See Bosse v. State,
2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur in
Results); Hogner v. State, 2021 OK CR 4, (Hudson, J.,
Specially Concurs); and Krafft v. State, No. F-2018340 (Okl. Cr., Feb. 25, 2021) (Hudson, J., Specially
Concurs) (unpublished).

App.10a

DISTRICT COURT OF OKMULGEE COUNTY,
STATE OF OKLAHOMA, FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(NOVEMBER 4, 2020)
IN THE DISTRICT COURT OF THE
TWENTY-FOURTH JUDICIAL DISTRICT
OF THE STATE OF OKLAHOMA SITTING
IN AND FOR OKMULGEE COUNTY
________________________
JIMMIE DEWAYNE STARR,
Appellant/Defendant,
v.
THE STATE OF OKLAHOMA,
Appellee/Plaintiff.
________________________
Case Nos. C-2018-640, CF-2016-80,
CF-2017-131, CF-2017-132
Before: Cynthia D. PICKERING,
Associate District Judge.
Now on this 4th day of November, 2020, the abovestyled matter comes on before the undersigned Judge.
The State of Oklahoma appears through District
Attorney Carol Iski and Assistant Attorney General
Jennifer Crabb. Jimmie Dewayne Starr appears through
counsel Nicollette Brandt of the Oklahoma Indigent
Defense System.

App.11a
The Court of Criminal Appeals of the State of
Oklahoma remanded the case for an evidentiary
hearing. In the remand order, the Court of Criminal
Appeals, on page 3, states as follows:
“Upon Starr’s presentation of prima facie
evidence as to his legal status as an Indian
and as to the location of the crime in Indian
Country, the burden shifts to the State to
prove it has subject matter jurisdiction.”
The Court of Criminal Appeals of the State of
Oklahoma expressly direct the District Court to
address only the following issues:
First, Starr’s status as an Indian. The District
Court must determine whether (1) Starr has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
FINDINGS OF FACT
1. The Court finds, by stipulation of the parties,
that Jimmie Dewayne Starr has 1/4 Indian blood, which
shows “some Indian blood” and has been a member of
the Muscogee (Creek) Nation since April 2, 1991.
2. The Court finds that the Muscogee (Creek
Nation) is a federal recognized tribe.
3. The Court finds that, by stipulation, the crime(s)
occurred within the boundaries of the Muscogee
(Creek) Nation.

App.12a
CONCLUSIONS OF LAW
1. Jimmie Dewayne Starr has 1/4 Indian blood,
which shows “some Indian blood” and has been a
member of the Muscogee (Creek) Nation since April 2,
1991.
2. Mr. Starr was a member of the Muscogee
(Creek) Nation at the time of the crimes.
3. The Muscogee (Creek Nation) is a federal
recognized tribe.
4. The crime(s) occurred within the boundaries of
the Muscogee (Creek) Nation, which were established
through a series of treaties between the Muscogee
(Creek) Nation and the United States Government.
5. These boundaries have been explicitly recognized
as establishing a reservation, as defined by 18 U.S.C.
§ 1151(a), and reaffirmed by the United States Supreme
Court in McGirt v. Oklahoma, U.S. 140 S. Ct. 2452,
207 L.Ed. 985 (2020).
/s/ Cynthia D. Pickering
Associate District Judge

App.13a
APPELLANT’S PROPOSED FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(OCTOBER 21, 2020)
IN THE DISTRICT COURT OF OKMULGEE
COUNTY STATE OF OKLAHOMA
________________________
JIMMIE DEWAYNE STARR,
Appellant/Defendant,
v.
THE STATE OF OKLAHOMA,
Appellee/Plaintiff.
________________________
Case Nos. C-2018-640, CF-2016-80,
CF-2017-131, CF-2017-132
Appellant, through counsel, presents his Proposed
Findings of Fact and Conclusions of Law. This matter
was set for hearing before the Court on October 15,
2020, in accordance with the remand order of the
Oklahoma Court of Criminal Appeals issued on August
19, 2020. The parties entered an Agreed Stipulation
and the hearing was stricken with instructions for the
parties to submit their Proposed Findings of Fact and
Conclusions of Law. Based upon the stipulations and
evidence presented by the parties, review of the pleadings, and the briefs and argument of counsel, Appellant respectfully requests that the Court adopts the
following findings of fact and conclusions of law.

App.14a
PROPOSED FINDINGS OF FACT AND
CONCLUSIONS OF LAW
The Tenth Circuit’s decision in United States v.
Diaz, 679 F.3d 1183 (10th Cir. 2012) articulates the
test for determining an individual’s Indian status
under federal law. As Diaz states:
To find that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian by
a tribe or by the federal government.
Id. at 1187 (internal quotations omitted); see also
Goforth v. State, 1987 OK CR 48, 644 P.2d 114.
Applied to the present matter, the parties jointly
stipulated in writing that the evidence will show “Mr.
Starr has 1/4 Indian blood and has been a member of
the Muscogee (Creek) Nation since April 2, 1991,” and
that “[t]he Muscogee (Creek) Nation is a federally
recognized tribe.” The Court accepts and attaches
these stipulations to the Court’s Findings of Fact and
Conclusions of Law. Applying elements of Diaz to the
evidentiary stipulations in the present matter, the
Court finds that Mr. Starr has “some Indian blood”
and is also “recognized as an Indian by a tribe and the
federal government.” For this reason, the Court finds
that Mr. Starr is an Indian under federal law.
Having found that Mr. Starr is an Indian under
federal law, this Court must now determine if the
crime occurred on the Creek Reservation. As McGirt
v. Oklahoma, 140 S. Ct. 242, 207 L.Ed. 2d 985 (2020),
explains “[t]he 1833 Treaty fixed borders for what was
to be a ‘permanent home to the whole Creek nation of
Indians.’” Id. at 2461. The parties in this matter

App.15a
stipulate “[t]he crimes occurred in Okmulgee County,
which lies entirely within the Muscogee (Creek)
Reservation boundaries.” For this reason, the Court
adopts the stipulation and finds the crime occurred on
the Muscogee (Creek) Reservation. Since an Indian
reservation is “Indian Country” for the purposes of 18
U.S.C. § 1151(a), Mr. Starr’s crimes occurred in Indian
Country.
The State of Oklahoma has no jurisdiction to try
an Indian who commits a crime in “Indian Country.”
See Solem v. Barlett, 465 U.S. 463, 465 n.2, 104 S. Ct.
1161, 1163 n.2, (1984). Since Mr. Starr is an Indian
who committed these crimes in Indian Country, the
State had no jurisdiction to try him. Therefore, Mr.
Starr’s conviction should be vacated.
Respectfully submitted,
/s/ Nicollette Brandt
Nicollette Brandt, No. 30996
Danny Joseph, No. 32812
General Appeals Division
Oklahoma Indigent Defense System
PO Box 926
Norman, Oklahoma 73070
(405) 801-2727

App.16a
JOINT MOTION TO STRIKE HEARING
(OCTOBER 16, 2020)
IN THE DISTRICT COURT OF OKMULGEE
COUNTY STATE OF OKLAHOMA
________________________
JIMMIE DEWAYNE STARR,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case Nos. C-2018-640, CF-2016-80,
CF-2017-131, CF-2017-132
Jimmie Dewayne Starr, through appellate counsel,
Nicollette Brandt and Danny Joseph, and the State of
Oklahoma hereby file their Joint Motion to Strike
Hearing. The parties have entered an Agreed Stipulation
in this matter and request that the Court render legal
conclusions based on the factual stipulations reached
by the parties.

App.17a
Respectfully submitted,
/s/ Nicollette Brandt
Nicollette Brandt, No. 30996
Danny Joseph, No. 32812
General Appeals Division
Oklahoma Indigent Defense System
PO Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Jennifer Crabb
Jennifer Crabb, No. 20546
Oklahoma Attorney General’s Office
Assistant Attorney General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921
/s/ Carol Iski
Okmulgee District Attorney’s Office
Assistant District Attorney
314 West 7th Street
Okmulgee, Oklahoma, 74447
(918) 756-0794

App.18a
AGREED STIPULATIONS
(OCTOBER 16, 2020)
IN THE DISTRICT COURT OF OKMULGEE
COUNTY STATE OF OKLAHOMA
________________________
JIMMIE DEWAYNE STARR,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case Nos. C-2018-640, CF-2016-80,
CF-2017-131, CF-2017-132
The Oklahoma Court of Criminal Appeals
remanded this matter for an evidentiary hearing pursuant to the recent decision in McGirt v. Oklahoma,
No. 18-9526 (U.S. July 9, 2020) to determine Mr. Starr’s
(a) Indian status and (b) whether the crimes occurred
on the Muscogee (Creek) Reservation. The parties
have reached the following stipulations:
1. As to Mr. Starr’s Indian status, the parties hereby stipulate and agree as follows:
a.

Mr. Starr has 1/4 Indian blood and has been
a member of the Muscogee (Creek) Nation
since April 2, 1991.

App.19a
b.

The Muscogee (Creek) Nation is a federally
recognized tribe.

c.

Verification of Mr. Starr’s tribal membership
and blood quantum are attached to this
stipulation as Exhibit A and the parties agree
they should be admitted into the record of
this case.

2. As to the location of the crimes, the parties
hereby stipulate and agree as follows:
a.

The crimes occurred in Okmulgee County.
which lies entirely within the Muscogee
(Creek) Reservation boundaries.

The parties therefore request that this Court
accept the stipulations.
Respectfully submitted,
/s/ Nicollette Brandt
Nicollette Brandt, No. 30996
Danny Joseph, No. 32812
General Appeals Division
Oklahoma Indigent Defense System
PO Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Jennifer Crabb
Jennifer Crabb, No. 20546
Oklahoma Attorney General’s Office
Assistant Attorney General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921

App.20a
/s/ Carol Iski
Okmulgee District Attorney’s Office
Assistant District Attorney
314 West 7th Street
Okmulgee, Oklahoma, 74447
(918) 756-0794

App.21a
COURT MINUTE
(OCTOBER 15, 2020)
IN THE DISTRICT COURT OF THE
TWENTY-FOURTH JUDICIAL DISTRICT
OF THE STATE OF OKLAHOMA SITTING
IN AND FOR OKMULGEE COUNTY
________________________
JIMMIE DEWAYNE STARR,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case Nos. CF-2016-80, CF-2017-131 and
CF-2017-132
Before: Cynthia D. PICKERING,
Associate District Judge.
NOW, on this 15th day of October, 2020, this matter
comes on before the Court for hearing as ordered by
Oklahoma Court of Criminal Appeals filed of record
on August 19, 2020 in The Court of Criminal Appeals
of the State of Oklahoma case number C-2018-640.
Present in person is District Attorney, Ms. Carol
Iski, who announces the parties have reached an
agreement that joint stipulations are being entered,
and that the hearing scheduled this date be stricken.

App.22a
The Court finds the Agreed Stipulation is presented
by Ms. Nicollette Brandt, the Oklahoma Indigent
Defense System; Ms. Jennifer Crabb, Oklahoma Attorney General’s Office; and Ms. Carol Iski, Okmulgee
County District Attorney.
The Court accepts and admits into evidence the
Agreed Stipulation, and grants the Motion to Strike
today’s hearing.
The Court further ORDERS the parties to submit
either by agreement or separately proposed FINDINGS OF FACT, CONCLUSIONS OF LAW within
10 days of this Order. The Court will take this matter
under advisement until such time as the proposed
findings are received and this Court renders a formal
written order.
/s/ Cynthia D. Pickering
Associate District Judge

App.23a
DISTRICT COURT OF OKMULGEE COUNTY,
STATE OF OKLAHOMA,
ORDER SETTING EVIDENTIARY HEARING
(AUGUST 24, 2020)
IN THE DISTRICT COURT OF THE
TWENTY-FOURTH JUDICIAL DISTRICT
OF THE STATE OF OKLAHOMA SITTING
IN AND FOR OKMULGEE COUNTY
________________________
THE STATE OF OKLAHOMA,
Plaintiff,
v.
JIMMIE DEWAYNE STARR,
Defendant.
________________________
Case Nos. CF-16-80, CF-17-131, CF-17-132
Before: Cynthia D. PICKERING,
Associate District Judge.
NOW, on this 24th day of August, 2020, this Court
is in receipt of an Order Remanding Cause to District
Court of Okmulgee County for Evidentiary Hearing.
Pursuant to the Order, the Court finds the same
should be set for hearing.
IT IS THEREFORE ORDERED this matter be set
for hearing on the 15th day of October, 2020 at 1:30
p.m. The State of Oklahoma is Ordered to prepare a

App.24a
Writ to secure the presence of the Defendant for said
hearing.
/s/ Cynthia D. Pickering
Associate District Judge

App.25a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JIMMIE DEWAYNE STARR,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2018-640
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
Jimmie Dewayne Starr entered a guilty plea in
the District Court of Okmulgee County to crimes
charged in the following three cases: in Case No. CF2016-80, Endangering Others While Eluding/Attempting
to Elude a Police Officer (Count 1), in violation of 21
O.S.2011, 540A(B) and Failure to Wear a Seatbelt (Count
2), in violation of 47 O.S.Supp.2012, § 12-417; in Case
No. CF-2017-131, Possession of Controlled Dangerous
Substance (Count 1), in violation of 63 O.S.Supp.2012,

App.26a
2-402 and Resisting an Officer (Count 2), in violation
of 21 O.S.2011, § 268; and, in Case No. CF-2017-132,
Bail Jumping, in violation of 22 O.S.2011, § 1110. The
felony counts were charged After Former Conviction
of Two or More Felonies.
The Honorable Cynthia D. Pickering, Associate District Judge, accepted Starr’s plea and sentenced him
as follows: in Case No. CF-2016-80, twenty years
imprisonment on Count 1 and costs on Count 2; in Case
No. CF-2017-131, ten years imprisonment on Count 1
and one year on Count 2; and in Case No. CF-2017-132,
three years incarceration. All sentences were ordered
to be served concurrently.
Starr filed a timely motion to withdraw his guilty
plea. After a hearing on the motion to withdraw held
on June 14, 2018, the motion was denied. Starr appeals
the denial of this motion.
In Proposition 6 of his Brief-in-Chief and related
Application to Supplement Appeal Record or in the
Alternative Remand for Evidentiary Hearing on Sixth
Amendment Claims, filed on December 4, 2018, Starr
claims the District Court lacked jurisdiction to try him.
Starr argues that he is a citizen of the Muscogee (Creek)
Nation and that the crimes occurred within the boundaries of the Creek Reservation. Starr, in his certiorari
appeal, relies on jurisdictional issues addressed in
Murphy v. Royal, 875 F.3d 896 (10th Cir. 2017), which
was affirmed by the United States Supreme Court in
Sharp v. Murphy, 591 U.S. ___, 140 S. Ct. 2412 (2020)
for the reasons stated in McGirt v. Oklahoma, 591
U.S. ___, 140 S. Ct. 2452 (2020).1
1 On March 25, 2019, we held Starr’s certiorari appeal in abeyance

App.27a
Starr’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Creek Reservation. These issues require factfinding. We therefore REMAND this case to the District Court of Okmulgee County, for an evidentiary
hearing to be held within sixty (60) days from the date
of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request the
Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Starr’s presentation of prima
facie evidence as to his legal status as an Indian and
as to the location of the crime in Indian Country, the
burden shifts to the State to prove it has subject
matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions
of law, to be submitted to this Court within twenty
(20) days after the filing of the transcripts in the District
Court. The District Court shall address only the following issues:
First, the Starr’s status as an Indian. The District
Court must determine whether (1) Starr has some

pending the resolution of the litigation in Murphy. Following the
decision in McGirt, the State asked to file a response to Starr’s
jurisdictional claim. In light of the present order, there is no need
for a response from the State at this time and that request is
DENIED.

App.28a
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.2
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Starr, within five (5) days
after the District Court has filed its findings of fact
and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings of
fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001). See generally Goforth v. State, 1982 OK CR 48 ¶6, 644 P.2d
114, 116.

App.29a
the District Court’s findings of fact and conclusions of
law, and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of Starr’s Brief-inChief and Application for Evidentiary Hearing on
Sixth Amendment Claim with this Order, to the District Court of Okmulgee County.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

